OIG Investigative Reports Press Release, East St. Louis  IL, 05/01/2013 - East St. Louis Couple Plead Guilty to Federal Student Aid Fraud, Mail Fraud, and Wire Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
SOUTHERN DISTRICT of ILLINOIS
NEWS
East St. Louis Couple Plead Guilty to Federal Student Aid Fraud, Mail Fraud, and Wire Fraud
FOR IMMEDIATE RELEASE
May 1, 2013
On April 29, 2013, Antwayne B. Crumble, a thirty-year old East St. Louis, IL, man and Danyelle T. McNeil, a twenty-nine year old East St. Louis, IL, woman, pled guilty in federal district court, in East St. Louis, to conspiracy to commit federal student aid fraud, mail fraud, and wire fraud, the United States Attorney for the Southern District of Illinois, Stephen R. Wigginton, announced today. Crumble and McNeil's sentencing date is to be scheduled, at which time both face a maximum potential five years' in prison and a fine of up to $250,000, not more than three years' of supervised release after their prison term, and a mandatory special assessment of $100.
Court proceedings revealed that on or about September 1, 2008, through September 28, 2009, Crumble and McNeil, who were involved in a romantic relationship, used personal identifying information received from family and friends to complete online applications for enrollment as undergraduate students at the University of Phoenix. After participants were accepted, they became eligible to receive federal student aid. Crumble and McNeil used newly enrolled students' personal information to make applications for federal student aid, including Pell Grant funds and student loan funds. After refund checks were disbursed to participants, online coursework ceased causing class enrollments to be terminated for inactivity. Crumble and McNeil split the student loan refund proceeds between themselves and the enrollees, all of whom spent the money on personal expenditures rather than any legitimate educational expenses.
This case was investigated by the U.S. Department of Education and assigned to Special Assistant United States Attorney Matthew H. Brooks for prosecution.
Top
Printable view
Last Modified: 05/03/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov